Executive Report



Return to the USDOJ/OIG Home Page



Office of Justice Programs Service, Training, Officers and
Prosecution Grant to the Confederated Tribes of the Umatilla Indian Reservation
GR-90-00-012March 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grant number 96-WI-NX-0049, awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), to the Confederated Tribes of the Umatilla Indian Reservation (CTUIR). The purpose of the Services, Training, Officers, and Prosecution (STOP) formula grant program is to develop or enhance tribal structure in order to combat violent crimes committed against Indian women

The CTUIR received two grants: the first was awarded in September 1996 in the amount of $84,000; the second in September 1998, in the amount of $100,000.  Both grants were awarded to implement training programs for judicial, law enforcement, substance abuse and social services staff.  The grant project period was September 30, 1996 through January 31, 2000. 

Our audit concentrated on, but was not limited to, the period October 1996 to August 1999.  We tested the accuracy and reliability of the CTUIR accounting system, reviewed the general ledger, and evaluated the allowability, allocability and reasonableness of costs.

In brief, our audit determined the CTUIR did not comply with the following grant conditions:


We found unallowable costs totaling $11,872 for expenses which were either unsupported or not related to the grant.
	The CTUIR generally was not in compliance with grant progress report requirements.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our scope and methodology appear in Appendix II.